Report No. D-2011-028              December 23, 2010





      Contract Oversight for the Broad Area Maritime 

        Surveillance Contract Needs Improvement

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AT&L                          Acquisition, Technology, and Logistics
BAMS                          Broad Area Maritime Surveillance
COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
EVM                           Earned Value Management
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
IBR                           Integrated Baseline Review
NAVAIR                        Naval Air Systems Command
PCO                           Procurement Contracting Officer
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE 

                                      400 ARMY NAVY DRIVE 

                                 ARLINGTON, VIRGINIA 22202-4704 





                                                                              December 23,2010

:MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
               DIRECTOR, DEFENSE CONTRACT MANAGE:MENT AGENCY
               NAVAL INSPECTOR GENERAL

SUBJECT: Contract Oversight for the Broad Area Maritime Surveillance Contract Needs
         Improvement (Report No. D-20 11-028)

We are providing this report for review and comment. This is second in a series ofreports on the
contract supporting the Broad Area Maritime Surveillance program. The Broad Area Maritime
Surveillance system development and demonstration contract is worth $1.8 billion and is part of
a major acquisition program worth more than $19 billion. DoD officials did not have the proper
controls to validate contractor charges and performance for the Broad Area Maritime
Surveillance contract. We considered management comments on a draft ofthis report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. To clarify our
requests ofmanagem~nt, we revised recommendations A.1.e.(3) and A.2.b. Additionally, some
ofthe comments were only partially responsive, nonresponsive, or otherwise needed additional
information. Therefore, we request additional comments from the Director, Defense Contract
Management Agency; Assistant Commander for Contracts, Naval Air Systems Command; and
the Program Manager, Persistent Maritime Unmanned Aircraft Systems Program Office on
Recommendations A.1.c, A.1.e.(2-4), A.1.e.(9), A.1.e.(lO), A.3.b, B.1.a.(1-2), B.l.b.(3), B.2.a
and b by January 24, 2011.

Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
management comments must have the actual signature ofthe authorizing official for your
organization. We are unable to accept the / Signed / symbol in place ofthe actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General   .
                                             Acquisition and Contract Management
 Report No. D-2011-028 (Project No. D2009-D000AS-0247.002)                               December 23, 2010

                 Results in Brief: Contract Oversight for the
                 Broad Area Maritime Surveillance Contract
                 Needs Improvement
                                                              necessary surveillance of the BAMS subcontractors’
What We Did                                                   EVM systems. These conditions occurred because
This is the second in a series of reports on the Broad        DCMA officials did not complete their assigned
Area Maritime Surveillance (BAMS) program.                    duties or comply with EVM guidance. As a result,
Specifically, we determined that DoD officials did            contract quality requirements may not be met and
not have the proper controls to validate the                  Navy and Office of the Secretary of Defense
contractor charges and performance for the BAMS               acquisition officials made decisions based on
contract. The BAMS contract with Northrop                     contractor EVM systems that may not be fully
Grumman, valued at $1.8 billion, is in the third year         reliable.
of a 7-year contract and is part of a major
acquisition program worth more than $19 billion.              What We Recommend
                                                              Among other recommendations, we made the
What We Found                                                 following to Defense Contract Audit Agency
The Navy and Defense Contract Management                      (DCAA), DCMA, and Naval Air Systems Command
Agency (DCMA) officials need to improve the                   officials:
management and administration of the BAMS                          expedite the incurred cost audits,
contract. Specifically, BAMS contracting officials                 conduct an administrative review of the
did not review 39 contractor bills or validate                        BAMS contracting officials,
whether the BAMS contractor was entitled to                        create and maintain a complete and auditable
$329.3 million in payments, create or maintain a                      Government-furnished property listing,
complete Government-furnished property listing, or                 perform contractor surveillance and develop
properly plan to share more than 5,000 specialized                    a proper quality assurance surveillance plan,
tools and testing equipment, worth more than                       re-validate outdated or previously acquired
$150 million, with the Air Force Global Hawk                          EVM systems, and
program. These conditions occurred because                         perform surveillance of the EVM systems.
BAMS contracting officials did not properly
perform all of their assigned duties, comply with            Management Comments and Our
Federal and DoD policies, or complete necessary
training requirements. As a result, the BAMS
                                                             Response
program is at risk for increased costs, schedule             The Director, DCMA; Director, DCAA; Assistant
delays, and not meeting the needs of the warfighter.         Commander for Contracts, Naval Air Systems
Additionally, based on our inquiries, Northrop               Command; and the Program Manager, Persistent
Grumman reduced costs on the BAMS contract by                Maritime Unmanned Aircraft Systems Program Office
$206,000 for unallowable travel expenses.                    provided comments for each recommendation. The
                                                             comments were responsive, partially responsive, or
DCMA officials did not develop a complete quality            nonresponsive; therefore, we require additional
assurance surveillance plan, perform any contractor          information. We revised two recommendations for
inspections to validate the contractor’s performance         clarity. We request additional comments by
or the $329.3 million paid, re-validate outdated and         January 24, 2011. Please see the recommendations
previously acquired Earned Value Management                  table on the back of this page.
(EVM) systems from 1975 and 1978, or perform the

                                                         i
Report No. D-2011-028 (Project No. D2009-D000AS-0247.002)                  December 23, 2010

Recommendations Table

           Management                  Recommendations            No Additional Comments
                                      Requiring Comment                   Required
Director, Defense Contract Audit                              A.2.a and b
Agency
Director, Defense Contract           B.1.a.(1-2), B.1.b.(3)   B.1.b.(1), B.1.b.(2), B.1.b.(4)(a),
Management Agency                                             B.1.b.(4)(b), B.1.b.(5)
Assistant Commander for Contracts,   A.1.c, A.1.e.(2-4),      A.1.a, A.1.b, A.1.d, A.1.e.(1),
Naval Air Systems Command            A.1.e.(9), A.1.e.(10),   A.1.e.(5-8), A.1.e.(11)
                                     B.2.a and b
Program Manager, Persistent          A.3.b                    A.3.a
Maritime Unmanned Aircraft
Systems Program Office

Please provide comments by January 24, 2011.




                                                ii
Table of Contents
 
Introduction                                                                           1
 

     Audit Objectives                                                                  1
 
     Background on BAMS                                                                1
 
     Weaknesses in the Internal Controls for the Management of the BAMS Contract       3
 

Finding A. Improper Contract Management at Naval Air Systems Command                   4
 

     BAMS PCO Did Not Perform the Responsibilities for a Contracting Officer           5

     Contractor Bills Did Not Meet Federal and DoD Requirements                        5
 
     Inadequate Contract Surveillance                                                 11
 
     The BAMS PCO and COR Did Not Properly Maintain a Complete Listing or Plan to 

          Share Government-Furnished Property                                         12
 
     Late Integrated Baseline Review                                                  14
 
     BAMS Contracting Officials Did Not Complete Required Acquisition Training        15
 
     Conclusion                                                                       18 

     Recommendations, Management Comments, and Our Response                           18 


Finding B. Additional Actions Needed by Defense Contract Management Agency to 

Improve Contractor Surveillance                                                       28
 

     Quality Assurance Surveillance Not Performed                                     28
 
     EVM Systems Not Properly Validated or Surveilled                                 30 

     Summary                                                                          33 

     Recommendations, Management Comments, and Our Response                           33 


Appendix. Scope and Methodology                                                       40
 
                                                                                          
Management Comments

      Defense Contract Audit Agency                                                   42 

      Defense Contract Management Agency                                              45

      Assistant Secretary of the Navy for Acquisition and Logistics Management        49 

Introduction
Audit Objectives
This is the second in a series of reports on the Broad Area Maritime Surveillance
(BAMS) contract. The first report focused on the BAMS contract award fee process.
Our overall audit objective was to determine whether DoD officials properly managed
and administered the contract supporting the BAMS program in accordance with Federal
and DoD policies. See the appendix for discussion of our scope and methodology.

This audit was conducted to support the requirements of Public Law 110-181, “National
Defense Authorization Act for FY 2008, section 842, “Investigation of Waste, Fraud, and
Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires:

        Thorough audits to identify potential waste, fraud, and abuse in the performance of
        (1) Department of Defense contracts, subcontracts, and task and delivery orders for the
        logistical support of coalition forces in Iraq and Afghanistan; and (2) Federal agency
        contracts, subcontracts, and task and delivery orders for the performance of security and
        reconstruction functions in Iraq and Afghanistan.

Background on BAMS
The BAMS program is an Acquisition Category ID1 program worth more than
$19 billion. On April 18, 2008, the Under Secretary of Defense for Acquisition,
Technology, and Logistics approved the BAMS program to enter the system development
and demonstration phase [Milestone B] of the DoD acquisition process. Navy officials
stated that the BAMS unmanned aircraft system is scheduled to achieve initial
operational capability in FY 2015. According to the BAMS contract, the BAMS
unmanned aircraft system will provide continuous maritime intelligence, surveillance,
and reconnaissance information to joint forces and fleet commanders worldwide. The
contract also states that the system will provide DoD with an ability to continually detect,
classify, and identify maritime targets. The Program Executive Officer for Unmanned
Aviation and Strike Weapons oversees the Persistent Maritime Unmanned Aircraft
System Program Office (BAMS Program Office). The proposed BAMS unmanned
aircraft vehicle is shown in Figure 1.




1
 DoD Instruction 5000.02, “Operation of the Defense Acquisition System,” December 8, 2008, defines an
acquisition category ID program as a DoD program that requires either more than $365 million in
Research, Development, Test, and Evaluation funds or Procurement funds of more than $2.190 billion in
FY 2000 dollars. According to BAMS program documentation, the BAMS program requires more than
$2.9 billion in Research, Development, Test, and Evaluation funds and the Procurement funds of more than
$8.8 billion in FY 2000 constant dollars.


                                                   1

                                    Figure 1. BAMS Aircraft




                                        Source: www.navair.mil

On April 22, 2008, a Naval Air Systems Command (NAVAIR) procurement contracting
officer2 (PCO) awarded a $1.2 billion cost-plus-award-fee contract,3 N00019-08-C-0023,
to Northrop Grumman Corporation, Integrated Systems (Northrop Grumman). Northrop
Grumman then subcontracted with Northrop Grumman Electronic Systems; L-3
Communications Systems-West; Raytheon, Intelligence and Information Systems
Communication; and others. The overall contract was for the system development and
demonstration of the BAMS unmanned aircraft system with a low-rate initial production
option. On February 17, 2009, the contracting officer modified the contract to account
for additional costs for the system development and demonstration phase and increased
the overall value of the contract by approximately $627 million, to a total of $1.8 billion.
Additionally, the BAMS contract with Northrop Grumman is in the third year of a 7-year
contract.

The Navy BAMS aircraft will use the same platform and some of the same components
as the Air Force’s Global Hawk aircraft. For example, the BAMS aircraft will use the
same engine, auto takeoff and land function, and unmanned aircraft command and control
center as the Global Hawk aircraft. The BAMS and Global Hawk programs will also
share maintenance, training, manpower, and Government-furnished property.

Contract Award Protest
Lockheed Martin Tactical Systems filed a protest with the Government Accountability
Office for the BAMS system development and demonstration contract award on May 5,
2008. The BAMS contracting officer subsequently issued a stop-work order for the
contract on May 6, 2008. However, on August 8, 2008, the Government Accountability
Office denied the protest, and the contracting officer restarted the work on the contract on
August 11, 2008.


2
  NAVAIR contracting officials consider personnel with overall responsibility for the contract as 

procurement contracting officers. 

3
  According to Federal Acquisition Regulation Subpart 16.3, “Cost Reimbursement Contracts,” a cost-plus-
award-fee contract is a type of cost-reimbursement contract. 



                                                   2

BAMS Contracting Officers Kept Changing
The BAMS contract had four contracting officers assigned to the contract since the award
on April 22, 2008: three PCOs and one contracting specialist. According to NAVAIR
officials, all of the PCOs and the contracting specialist were warranted contracting
officers. The NAVAIR PCOs had unlimited warrants with overall responsibility of the
contract; whereas, the contracting specialist had a limited warrant. The first BAMS PCO
awarded the contract but left the position in June 2008. The second BAMS PCO was
responsible for the contract from June 2008 to November 2008, which included the work
stoppage. The third (current) BAMS PCO assumed the duties for the contract in
November 2008. Additionally, the BAMS contracting specialist was assigned to assist
the PCO since November 2008.

Weaknesses in the Internal Controls for the Management
of the BAMS Contract
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the management and administration of the BAMS contract. The BAMS
contracting officials did not review contractor bills, manage and maintain
Government-furnished property listings, complete required continuous learning training
requirements, or conduct integrated baseline reviews. In addition, Defense Contract
Management Agency (DCMA) officials did not create an adequate quality assurance
plan, perform inspections of contractor work, re-validate changes to Earned Value
Management (EVM) systems, or perform surveillance of the systems. For specific results
of these weaknesses, see Findings A and B of this report. Implementing all
recommendations in this report will improve the internal controls over the management
and administration of the BAMS contract. We will provide a copy of the report to the
senior officials responsible for internal controls at DCMA and NAVAIR.




                                            3

Finding A. Improper Contract Management at
Naval Air Systems Command
The NAVAIR BAMS PCO, contracting officer’s representative (COR), and program
officials did not properly manage the BAMS contract worth $1.8 billion. Specifically,

   	 the PCO and the COR did not verify that the BAMS contractor was entitled to the
      $329.3 million paid,

   	 the PCO and the COR did not review any contractor bills prior to payment to the
      BAMS Contractor,

   	 the PCO and the COR did not require the BAMS contractor to submit bills for
      payment in accordance with the DoD Regulation 7000.14-R, “DoD Financial
      Management Regulation,” (DoD FMR) or comply with the terms of the contract,

   	 the PCO did not verify that DCMA officials conducted surveillance of the 

      contract, 


   	 the PCO and COR did not create or maintain an auditable Government-furnished
      property listing,

   	 the PCO and COR did not establish a complete property-sharing agreement
      between the Navy BAMS program and the Air Force Global Hawk program to
      share specialized tools and testing equipment worth more than $150 million,

   	 the PCO and COR did not adequately plan for the use or oversight of 

      Government-furnished property, and 


   	 BAMS program officials did not conduct an integrated baseline review (IBR)
      until more than 180 days after the required completion date.

These conditions occurred because BAMS contracting officials did not completely or
fully perform their assigned duties; comply with Federal, DoD, and Navy policies;
provide effective contract oversight; or complete training requirements. As a result, the
BAMS program is at risk for increased costs, schedule delays, and not meeting the needs
of the warfighter. Additionally, based on our inquiries, Northrop Grumman reduced
costs on the BAMS contract by $206,000 in unallowable travel expenses.




                                            4

BAMS PCO Did Not Perform the Responsibilities for a
Contracting Officer
According to the Federal Acquisition Regulation (FAR) Subpart 1.6, “Career
Development, Contracting Authority, and Responsibilities,” contracting officers are
responsible for verifying that all necessary actions for effective contracting are performed
and comply with the terms of the contract. The BAMS PCO delegated the contract
administration responsibilities to DCMA-Bethpage and some surveillance functions to
the COR.4 However, the BAMS PCO did not verify that DCMA-Bethpage or the BAMS
COR performed their assigned duties. Specifically, DCMA-Bethpage officials did not
perform any contractor surveillance or inspections and the COR did not review any
contractor bills or properly maintain the Government-furnished property listing.
Although the BAMS PCO delegated some of these responsibilities to DCMA-Bethpage
officials and the COR, he is still ultimately responsible for verifying that these
responsibilities were performed.

Contractor Bills Did Not Meet Federal and DoD
Requirements
Federal Acquisition Regulation (FAR) Subpart 31.2, “Contracts with Commercial
Organizations,” states that expenses billed to the Government are limited to costs that are
allowable, allocable, and reasonable. DoD FMR, volume 10, chapter 1, states that
payment cannot be made without determining entitlement to the payment. Entitlement
consists of a receipt of a “proper”5 invoice, proof of receipt, and acceptance,6 as well as
the contract terms and conditions. According to the DoD FMR, volume 10, chapter 7, a
disbursing office must be provided supporting documents as evidence that the payment is
legal. The supporting documents normally consist of a contract, invoices from
contractors, and a receiving report completed by the office(s) receiving the property or
service. Additionally, DoD FMR, volume 10, chapter 8, states that a contractor is
“entitled” to payment when the contracting officer issues a contract, prepares a receiving
report, and approves the invoice a contractor submits for payment. For purposes of this
report, we will refer to contractor requests for payment (voucher) as a contractor bill.
Figure 2 depicts the DoD billing and payment process.




4
  The BAMS COR delegation letter, among other things, required that the COR identify and account for
Government-furnished property and provide any change to the PCO for modification on the contract and
review the contractor’s bills to verify that they accurately reflected the work completed in accordance with
the requirements of the contract and certify acceptance.
5
  According to FAR 52.232-25(a)(3), “Prompt Payment,” an invoice is considered “proper” when it
contains the name and address of the contractor; invoice date; contract number; and description, quantity,
and unit price and measure of supplies delivered or services performed.
6
  Acceptance means an authorized Government official acknowledges that goods and services received
conform to contract requirements.


                                                     5

  Figure 2. Proper DoD Billing and Payment Process

                        Receiving report
Contract     +     (Acceptance is performed            +      Contractor bills
                    by the requiring activity)




                    Contractor- or system-
                   generated contractor bill




                          Certifying
                       official reviews
                       contractor bill.
                         Approved?


              No                                 Yes




                                            Disbursing
                                          office reviews
                                            supported
                                          contractor bill.
                                            Approved?


                               No                                 Yes



                   Contractor bill                             Certifies
                    returned to                              contractor bill
                   contractor for
                     correction

                                                           Disbursing office
                                                           disburses money


                                                            Contractor paid




                             6

Lack of BAMS PCO and COR Review of Contractor Bills
Neither the BAMS PCO nor the COR validated that the contractor was entitled to
$329.3 million paid on the BAMS contract as of January 12, 2010. Specifically, the
BAMS PCO and the COR did not verify that the contractor bills were commensurate with
the contractor’s performance.

The BAMS COR delegation letter required that the COR “review the contractor’s bills to
ensure they accurately reflect the work completed in accordance with the requirements of
                                         the contract and certify acceptance.” According
   Neither the BAMS PCO nor to DoD FMR volume 10, chapter 7, actual
    the COR validated that the           acceptance is the written certification that the
     contractor was entitled to          goods or services were received and that they
    $329.3 million paid on the           conform to the terms of the contract. Therefore,
                                         the BAMS PCO required the COR to certify the
        BAMS contract, as of             Government acceptance of the work performed.
         January 12, 2010.               However, the COR stated that she did not review
                                         contractor bills or perform the duties assigned to
her in her delegation letter because the letter was a generic NAVAIR COR letter. In
addition, the BAMS PCO did not verify that the COR performed her assigned duties.

As a result, the PCO and the COR did not determine whether the costs were
commensurate with the contractor’s performance or complied with the terms of the
contract. Therefore, the BAMS PCO and the COR allowed payments without performing
actual acceptance or determining that the contractor was entitled to receive these funds.
The contracting officer should hold the COR accountable to perform proper reviews of
the contractor bills as part of her contract surveillance responsibilities before the bills are
approved for payments in the wide-area workflow.7

DCAA Rescinded Northrop Grumman’s Authority to Direct Bill
On July 20, 2009, DCAA Long Island Branch auditors rescinded Northrop Grumman’s
authority to direct bill8 because of its inability to resolve “systemic issues” with its billing
system. According to a July 20, 2009, DCAA memorandum, Northrop Grumman failed
to accurately adjust billing rates for FY 2004; included non-billable costs and fees that
were not in accordance with applicable regulations and contract terms in its contractor
bills; and failed to comply with contractual requirements which resulted in the billing of
material costs in excess of requirements.9


7
  The BAMS contract requires the contractor to submit its bills for payment through the wide-area
workflow system. Wide-area workflow is a web-based system that allows DoD Components and their
contractors to document the receipt, acceptance, entitlement, and payment process through data sharing and
electronic processing.
8
  According to the wide-area workflow Web site, direct billing occurs when DCAA grants the contractor
authority to send interim vouchers directly to the appropriate Defense Financial and Accounting Service
office for payment. DCAA then performs an audit only on the final payment.
9
  For more details, see DCAA Report Nos. 2201-2009D11010002, 2201-2009D11010001, and 2201-
D2009H11010001.


                                                    7

As a result, DCAA Long Island Branch auditors manually reviewed a sample of all
Northrop Grumman contractor bills; these samples included Northrop Grumman bills
related to the BAMS and other contracts.10 In total, the DCAA auditors reviewed four
contractor bills worth more than $43.4 million that were submitted for payment on the
BAMS contract from August 2009 through January 2010. The DCAA auditors’ review
of the BAMS contractor bills consisted of testing the mathematical accuracy, reconciling
the billed costs to the contractor’s accounting records, and verifying whether the material
claimed on the contractor’s bill was based on contract requirements. Because of the
issues identified in this report and DCAA’s reports, DCAA Long Island Branch auditors
should increase their review of Northrop Grumman’s bills. Additionally, the BAMS
PCO or COR should review the contractor bills to assist DCAA in determining whether
Northrop Grumman’s charges were billed in accordance with the contract terms.

BAMS Contractor Bills Did Not Provide Any Details or Reflect
the Work Performed
None of the 39 contractor bills submitted from May 5, 2008, through January 12, 2010,
complied with the DoD FMR. The BAMS contract did not require that the contractor
                                        submit contractor bills in accordance with the
    None of the 39 contractor           DoD FMR. Instead, the contract required only
   bills submitted from May 5, that the contractor identify the contract line items
   2008, through January 12, on the bill that “reasonably reflect contract work
                                        performance” and to identify an amount for each
     2010, complied with the            contract line item billed.11 The DoD FMR states
             DoD FMR.                   that the contractor should bill the contract only for
                                        the services or supplies provided. DoD FMR
defines a contractor bill as proper when it contains, among other things, a description,
quantity, unit of measure, and price of the supply or service being performed.

Additionally, the BAMS contractor did not comply with the terms of the contract because
the contractor bills did not reasonably reflect the work performed or demonstrate
entitlement to the billed amount. For example, the BAMS contractor bills submitted for
payment indicated the total amount billed, a unit of measure as “each,” and a quantity of
“one” but did not itemize the amounts billed such as labor hours, travel, materials, and
other direct costs. The BAMS COR also did not review the contractor bills to verify
whether the charges were commensurate with the contractor’s performance, as assigned
in her delegation letter. Therefore, the BAMS PCO had no assurance that the contractor
charged and was paid for goods and services required by the contract. Figures 3 and 4
are examples of bills that the contractor submitted and received payment for under the
BAMS contract.



10
   The DCAA auditors’ sample of contractor bills included all DoD prime contracts submitted by Northrop
Grumman Integrated Systems located in Bethpage, New York.
11
   The BAMS contract required the contractor to bill exclusively under one contract line item, which is a
cost-plus-award-fee contract line item, for the system development and demonstration of the BAMS
unmanned aircraft system.


                                                    8

                            Figure 3. Contractor Bill A




                             Figure 4. Contractor Bill B




The BAMS PCO should modify the contract to require that the contractor submit proper
bills in accordance with the DoD FMR. The BAMS PCO should also request that the
BAMS contractor include the necessary documentation to support the charges submitted


                                          9

in the wide-area workflow system. By modifying the BAMS contract, the contractor bills
should comply with the DoD FMR and better assist DCAA in certifying that the charges
billed were allowable, allocable, and reasonable.

Unallowable Travel Expenses and Avoidable Award Fees Paid
The BAMS contractor billed and received payment for approximately $206,000 in
unallowable travel expenses and relocation costs. The BAMS contractor also billed and
received payment for at a minimum $90,000 in avoidable award fees. According to the
BAMS contract, the Government was to reimburse the contractor for travel-related
expenses incurred during performance of the contract and in accordance with FAR
subpart 31.2 and the Joint Travel Regulation, volume 2, “DoD Civilian Personnel,”
Appendix A. FAR subpart 31.2 states that travel costs are allowable when they are
incurred during performance of the contract and to the extent the costs do not exceed the
maximum allowable per diem rates at the time of travel.

We identified questionable travel expenses by the BAMS contractor such as a BAMS
unmanned aircraft system golf outing and air shows in Washington, D.C.; Paris, France;
                                               and Singapore that were paid by the PCO.
   We identified questionable travel The DCAA Long Island Branch auditors
          expenses by the BAMS                 examined the travel expenses that we
       contractor such as a BAMS               identified were billed under the BAMS
     unmanned aircraft system golf             contract, and determined that Northrop
                                               Grumman officials billed and received
          outing and air shows in              payment for unallowable travel costs on 17
        Washington, D.C.; Paris,               travel vouchers.12 According to the DCAA
       France; and Singapore that              Long Island Branch auditor, a senior official
          were paid by the PCO.                at Northrop Grumman submitted 8 of the
                                               17 travel vouchers that included the
unallowable charges for the BAMS contract. As of December 2009, the BAMS
contractor reduced costs by $206,000 on the contract for unallowable travel charges
based on a Northrop Grumman review of the questioned travel vouchers. However, a
Northrop Grumman official said that they did not review all travel vouchers or any other
charges related to the contract. Therefore, there is a potential for additional unallowable
expenses charged and paid to the BAMS contractor. The BAMS PCO should review all
travel expenses and supporting documentation to verify that the contractor submitted
travel claims in accordance with FAR subpart 31.2. The BAMS PCO should also recoup
any additional unallowable travel expenses paid to Northrop Grumman.

Additionally, the BAMS contractor received payment for award fees on travel expenses
billed for at least $90,000 but possibly as much as $300,000. The BAMS contract is a
cost-plus-award-fee contract with a fixed-base award fee of 3 percent with an additional
7 percent in judgmental award fees available for a total of 10 percent in award fees based
on the contractor’s performance for the BAMS contract. The BAMS contract required

12
  According to the DCAA Long Island auditor, he requested an investigation for the review of all Northrop
Grumman travel vouchers submitted for payment under DoD contracts.


                                                   10 

that Northrop Grumman charge all expenses to the cost-plus-award-fee contract line item.
According to a DCAA Long Island Branch auditor, Northrop Grumman officials charged
and received payment for a total of $3 million in travel expenses on the BAMS contract.
As such, Northrop Grumman received, at a minimum, $90,00013 with a potential of
$300,00014 for award fees in addition to the travel expenses paid.

We question the practice of allowing the contractor to charge award fees based on travel
expenses under a cost-plus-award-fee contract line item because it is difficult to evaluate
the contractor’s performance on travel. Since Northrop Grumman submitted unallowable
travel expenses, one could argue that the contractor’s performance would preclude it
from receiving any such award fees on travel for the BAMS contract. Therefore, we
considered the $90,000, paid in award fees to Northrop Grumman as avoidable.
Establishing a separate cost reimbursement contract line item, would eliminate any
incentive to maximize travel billings. The Assistant Commander for Contracting,
NAVAIR, should consider discontinuing this practice for future cost-plus-award-fee
contracts and establish a separate contract line item in which the contractor can bill for
travel expenses only on a cost-reimbursement basis.

The BAMS PCO and COR did not review the contractor bills as part of their surveillance
functions; therefore, they allowed payment for expenses that were not allowable or
reasonable to the BAMS contract. Additionally, due to a lack of supporting
documentation, we were unable to determine whether additional expenses paid were
unallowable. The BAMS PCO should request that Northrop Grumman perform a review
of its travel claim approval process. DCAA Long Island Branch auditors should perform
their incurred cost audits for the BAMS contract, within a year of the date the final report
is issued, to determine whether there were other unallowable costs paid to the contractor.

Inadequate Contract Surveillance
The BAMS PCO did not verify whether DCMA Bethpage officials performed the
necessary contract surveillance for the BAMS contract. On April 22, 2008, (contract
award) the BAMS PCO delegated the contract administrative functions to DCMA
Bethpage, New York. However, DCMA Bethpage officials did not develop a complete
quality assurance surveillance plan or conduct any inspections of the BAMS contractor
work as required by FAR Subpart 42.3, “Contract Administration Office Functions.” The
BAMS PCO delegated the contract quality assurance duties to DCMA Bethpage officials;
however, he is ultimately responsible for verifying that the Government provided the
required contractor oversight. See Finding B of this report for more details about
contract surveillance.




13
   We computed the $90,000 by multiplying the total travel costs ($3 million) by the base award fee 

(3 percent).

14
   We computed the $300,000 by adding the $90,000 plus the $210,000 in judgmental award fees available, 

which was computed by multiplying the total travel costs ($3 million) by the judgmental award fee 

available (7 percent). 



                                                  11 

The BAMS PCO and COR Did Not Properly Maintain a
Complete Listing or Plan to Share Government-
Furnished Property
Neither the BAMS PCO nor the COR created a complete Government-furnished property
listing or maintained an auditable listing for the BAMS contract. The BAMS PCO
designated that the COR identify and account for Government-furnished property and
provide any change for modifications to the contract. Additionally, the BAMS PCO did
not appropriately plan to share property, worth more than $150 million, with the Air
Force Global Hawk program.

Government-Furnished Property Requirements
FAR Part 45, “Government Property,” defines Government-furnished property as
property that is possessed or acquired by the Government and subsequently furnished to
the contractor for performance of a contract. FAR Subpart 45.2, “Solicitation and
Evaluation Procedures,” requires that the PCO identify all Government-furnished
property anticipated in all solicitations. According to FAR part 45 and DoD Instruction
5000.64, “Accountability and Management of DoD-Owned Equipment and Other
Accountable Property,” November 2, 2006, the Government-furnished property listing
should include name, description, manufacturer, model number, national stock number (if
applicable), quantity, unit acquisition cost, a unique item identifier, location of property,
and date transferred. DoD Instruction 5000.64 also requires that property records be kept
current and provide a complete audit trail of all transactions. Moreover, FAR Clause
52.245-1, “Government Property,” states that the Government will deliver the property
described in the contract. The BAMS PCO provided a listing of Government-furnished
property as an attachment to the contract. The BAMS property listing consisted of
Government-furnished equipment, facilities, information, property, and special testing
equipment.15

Incomplete BAMS Property Listing
Neither the BAMS PCO nor the COR created a complete Government-furnished property
listing for the BAMS contract as required by FAR subpart 45.2 and DoD
                                               Instruction 5000.64. The original BAMS
      However, the BAMS property               Government-furnished property listing did
        listing did not include over           not contain the location, date received by
        5,000 specialized tools and            the contractor, the unique item identifier,
                                               the current status, or the unit acquisition
      testing equipment worth more
                                               cost of the property. The original property
     than $150 million that the Navy listing also indicated that various tooling
      will share with the Air Force.           and special test equipment were required for
                                               the contract. However, the BAMS property
listing did not include over 5,000 specialized tools and testing equipment worth more


15
 In this report, we will refer to all types of Government property furnished to the BAMS contractors as
Government-furnished property.


                                                   12 

than $150 million that the Navy will share with the Air Force. Some of the specialized
tools and testing equipment included a “metallic curing fixture,” valued at $437,000, and
“mechanical transportation equipment,” valued at $98,200. A BAMS program official
stated that this occurred because the Navy BAMS program had not started to share the
specialized tools and testing equipment with the Air Force Global Hawk program.16

We reviewed four different BAMS Government-furnished property listings. Two
Government-furnished property listings were modified to the contract. The other two
listings were provided by the BAMS COR and were not added to the contract. According
to the BAMS COR delegation letter, the COR should identify and account for
Government-furnished property and provide any change to the PCO for modification on
the contract. During the audit, the COR revised the property listings to include the
location of the property and the date received by the contractor. However, the COR did
not provide the revised property listings to the PCO for modification of the BAMS
contract, as required by her COR delegation letter.

Although the COR revised the BAMS Government-furnished property listing to include
                                   the property location and the date received, the
    Neither the BAMS PCO           listing still did not comply with FAR subpart 45.2
    nor the COR created or         and DoD Instruction 5000.64. Neither the BAMS
    maintained a complete          PCO nor the COR created or maintained a complete
                                   and auditable Government-furnished property listing.
         and auditable             For example, the property listing identified a “laser
     Government-furnished          beam analyzer” and a “mold” but did not include the
        property listing.          item cost, unique item identifier, and the current
                                   status of the property. By not maintaining a
comprehensive and accurate property listing, BAMS PCO and COR demonstrated a lack
of accountability for tracking BAMS Government-furnished property.

As a result, the BAMS PCO and the COR were unable to fully account for Government-
furnished property provided for the BAMS contract. Without maintaining a reliable
Government-furnished property listing, property is at risk for misplacement or theft,
potentially causing Navy officials to repurchase the lost or misplaced property. The
BAMS PCO, in coordination with the COR, should identify all Government- furnished
property given to contractors as required by FAR subpart 45.2 and DoD
Instruction 5000.64. The BAMS PCO should then modify the BAMS contract to include
an accurate property listing. Additionally, the PCO must maintain auditable property
listing as required by DoD Instruction 5000.64. The BAMS PCO should also perform
semiannual reviews to verify the accuracy of the Government-furnished property listing.

Government Property-Sharing Agreement Not Finalized
The BAMS PCO established an agreement with the Air Force to share Government-
furnished property for the BAMS contract. According to a Department of the Air Force,


16
     Northrop Grumman is the prime contractor for both BAMS and Global Hawk programs.


                                                  13 

Headquarters Aeronautical Systems Center memorandum, “Ground Rules and
Assumptions for Non-Interference Use of Global Hawk Property for the Navy BAMS
Program,” December 10, 2008, (Air Force Property-Sharing Agreement) Air Force
officials agreed to share Global Hawk specialized tools and testing equipment with the
Navy BAMS program. The Global Hawk program was to share over $150 million worth
of specialized tools and equipment with the BAMS program on a “rent-free,
noninterference basis.” Some of the Global Hawk specialized tools and testing
equipment included a floor assembly jig, valued at $751,883, and a mold, valued at
$613,000. The Air Force property-sharing agreement stipulated that the BAMS program
cannot delay or interfere with Global Hawk production activities. This stipulation could
cause production and development delays for the BAMS contract. The BAMS Program
Office property administrator stated that the BAMS PCO will have to purchase any
equipment that was not readily available to the BAMS program and charge the costs to
the BAMS contract. The property administrator also stated that the BAMS PCO did not
develop a mitigation strategy to address potential production delays caused by the lack of
availability of special testing equipment or the lead time for procurement of these items.

Additionally, the Air Force Property-Sharing Agreement states that any accumulated
maintenance, repair, and labor costs will be paid for through a cost-share arrangement
between the Global Hawk and the BAMS programs. However, the cost-share
arrangement only outlined and established the terms and conditions of leveraging
commonalities between the two programs to “reduce program costs for the DoD and
pursue joint efficiencies.” The Air Force Property-Sharing Agreement did not state how
the Navy and the Air Force would divide the maintenance, repair, and labor costs
between the two programs, which could cause conflicts. As a result, the BAMS PCO did
not properly plan to account for or share Government-furnished property with the Air
Force. The BAMS PCO should develop a plan that includes clarification of the Air Force
Property-Sharing Agreement for division of costs and the mitigation strategy for the
availability of equipment.

Late Integrated Baseline Review
BAMS program officials did not conduct timely IBRs. According to FAR subpart 34.2,
the Government must conduct an IBR to validate the accuracy of the program’s budget,
resources, and schedule. Defense Federal Acquisition Regulation Supplement (DFARS)
clause 252.234-7002 further requires that the Government conduct an IBR no later than
180 days after (1) contract award, (2) the exercise of large contractual options, or (3) the
integration of major contract modifications. BAMS program officials conducted one IBR
on July 23, 2009, which was 362 days17 after contract award. According to BAMS
program officials, the IBR included both the BAMS basic contract award and the
$627 million contract modification in modification 8. BAMS program officials stated
that the delay occurred because the Program Executive Officer for Unmanned Aviation
and Strike Weapons extended the IBR due date. However, this extension was not


17
  Our calculations did not include the 98 days of work stoppage due to a contract award protest in May
2008.


                                                   14 

documented in the contract file nor could officials provide evidence that this occurred.
Table 1 shows the number of days that elapsed between the contract award and the major
modification and when BAMS program officials conducted the only IBR.

                     Table 1. Required Integrated Baseline Reviews
     Major Contract        Date of         180-Day         Date of                     Number
         Event              Event        Requirement       Review                      of Days
     Contract Award       April 22,       January 23,      July 23,                      362
                             2008            2009           2009
      Modification 8    February 17,      August 16,       July 23,                       156
                             2009            2009           2009

Although BAMS program officials completed an IBR within 180 days of the major
contract modification, they did not conduct a separate IBR for the contract award.
DFARS clause 252.234-7002 does not provide any exceptions for the requirement to
conduct an IBR within 180 days after contract award. The DoD EVM implementation
guide further states that IBRs are not one-time events and should occur throughout the
life of the program. Therefore, BAMS program officials did not validate the accuracy of
the BAMS contract budget, resources, or schedule until over a year after contract award.
The BAMS program manager should conduct IBRs throughout the life of the contract in
accordance with FAR subpart 34.2 and DFARS clause 252.234-7002.

BAMS Contracting Officials Did Not Complete Required
Acquisition Training
The BAMS PCO18 and contracting specialist19 did not receive the required continuous
learning training to maintain their skills and proficiencies in accordance with DoD and
                                            Navy polices. Additionally, the BAMS COR
        The BAMS PCO and                    did not fully understand her assigned duties or
   contracting specialist did not ask for clarification to understand her role.
          receive the necessary
                                            DoD Instruction 5000.66, “Operation of the
      continuous learning training          Defense Acquisition, Technology, and
       to maintain their skills and         Logistics Workforce Education, Training, and
            proficiencies . . .             Career Development Program,” December 21,
                                            2005, (DoD AT&L Continuous Learning
Policy) states that the primary objective of the program is to create a professional, agile,
and motivated workforce that consistently makes smart business decisions, acts ethically,
and delivers timely and affordable capabilities to the warfighter. According to the DoD
AT&L Continuous Learning Policy, DoD AT&L workforce professionals must
participate in continuous learning activities in order to remain proficient in their
functional disciplines and initiatives in the DoD environment. The DoD AT&L


18
     The BAMS PCO was responsible for the overall execution of the contract since November 2008.
19
     The BAMS contracting specialist was assigned to the contracts in November 2008.


                                                    15 

Continuous Learning Policy also requires that the DoD AT&L workforce earn a
minimum of 40 continuous learning points every fiscal year and 80 continuous learning
points during each 2-year training cycle. NAVAIR PCOs and contracting specialists are
members of the DoD AT&L workforce and must follow the DoD AT&L Continuous
Learning Policy.

The BAMS PCO and the contract specialist have not met the continuous learning
requirement since the FY 2002 and 2003 and FY 2005 and 2006 training cycles,
respectively. For example, the current BAMS PCO was 45 points deficient in his
continuous learning points for the FY 2004 and 2005 training cycle, and the contracting
specialist was 32 points deficient in her continuous learning points for the FY 2007 and
2008 training cycle. When asked, the current BAMS PCO stated that he could not
remember the last time he received contract-related training.

Therefore, the BAMS PCO and contract specialist did not receive training to maintain
their skills and proficiencies for managing and administering the contract in accordance
with the DoD AT&L Continuous Learning Policy. The Assistant Commander for
Contracting, NAVAIR, should conduct an annual training review of all NAVAIR
contracting officials to verify that they received the appropriate training to maintain their
knowledge, skills, and abilities relevant to contracting.

Individual Training Plans Not Established
The DoD AT&L Continuous Learning Policy requires that employees and their
supervisors establish annual individual training plans for continuous learning.
Additionally, the Department of the Navy, Office of the Assistant Secretary for Research,
Development, and Acquisition memorandum, “Department of the Navy Policy Guidance
on Continuous Learning for the Acquisition Workforce,” November 4, 2002, implements
the DoD AT&L Continuous Learning Policy. The Navy guidance requires employees
and supervisors to work together and establish an individual training plan that emphasizes
continuous learning activities the employees are to participate in annually.

Neither the PCO nor the contract specialist assigned to the BAMS contract developed an
individual training plan. The PCOs, contract specialist, and their supervisors should be
held accountable for not meeting the continuous learning requirements. The Assistant
Commander for Contracting, NAVAIR, should verify on an annual basis that supervisors
developed an individual training plan with the PCOs and contract specialist to stay
current and proficient in their functional areas as required by the AT&L Continuous
Learning Policy.




                                             16 

COR Training Improvements Needed
The BAMS COR did not fully understand her assigned duties or ask for clarification to
understand her role. For example, the COR stated that she believed that she did not have
to perform all assigned duties because her delegation letter was a standard NAVAIR
COR letter.

DFARS subpart 201.6 states that a COR must have the necessary training and experience
commensurate with the responsibilities assigned to that position. According to the Under
Secretary of Defense for AT&L memorandum, “Designation of Contracting Officer’s
                                            Representatives on Contracts for Services in
      For example, the COR stated           Support of Department of Defense
      that she believed that she did        Requirements,” December 6, 2006, properly
         not have to perform all            trained CORs should oversee active contracts
       assigned duties because her          in support of DoD requirements. Additionally,
                                            the Deputy Secretary of Defense
         delegation letter was a            memorandum, “Monitoring Contract
     standard NAVAIR COR letter. Performance in Contracts for Services,”
                                            August 22, 2008, states that trained CORs are
critical because they ensure that contractors comply with all contractual requirements and
overall performance is commensurate with payments made throughout the contract.

According to the Office of Management and Budget, Office of Federal Procurement and
Policy memorandum, “The Federal Acquisition Certification for Contracting Officer
Technical Representatives,” November 26, 2007, (Federal COR Certification Program)
all CORs appointed to a contract must receive the required training no later than
6 months from their date of appointment. The Federal COR Certification Program also
establishes a competency-based core training and assignment-specific training to achieve
and maintain the certification. To earn the Federal COR certification, the COR must
complete 40 hours of training and maintain their skills through continuous learning. The
40 hours of training must consist of 18 hours in courses for managing a particular
contract. However, the BAMS COR completed only two courses, which accounted for
10 of the required 40 hours identified in the Federal COR Certification Program. The
BAMS PCO also did not require that the COR complete any BAMS contract-specific
training to better understand her assigned duties.

According to the DoD Panel on Contracting Integrity’s, “2009 Report to Congress,”
undated, DoD officials are in the process of developing the first standard DoD COR
certification Program. This certification program will describe the certification process
and identify the roles and responsibilities of CORs within the DoD. Additionally, the
Under Secretary of Defense for AT&L issued a policy memorandum, “DoD Standard for
Certification of Contracting Officer’s Representatives (COR) for Service Acquisitions,”
on March 29, 2010. The policy memorandum establishes the DoD standard for the
minimum COR competencies, experience, and training records according to the nature
and complexity of the requirement and contract performance risk. The policy
memorandum explains that the COR standard introduces structure to the COR


                                           17 

responsibilities. The COR standard will also be the basis for a forthcoming DoD
Instruction establishing a comprehensive DoD COR certification program. The Under
Secretary of Defense for AT&L also encouraged current and prospective CORs to
complete the identified training as it becomes available.

Until DoD officials finalize and implement a COR certification program, the BAMS PCO
should require and verify that the COR complete the training identified in the Federal
COR Certification Program. The BAMS PCO should also verify that the COR fully
understands her responsibilities and require that the COR complete additional functional
area training in order to fulfill her assigned duties.

Conclusion
The PCO and COR did not perform their assigned duties for managing the $1.8 billion
BAMS contract. Specifically, the BAMS PCO and COR did not review 39 contractor
bills, validate that the contractor was entitled to $329.3 million paid to the contractor, or
                                        create a complete and auditable Government-
    The BAMS PCO and COR furnished property listing. The BAMS PCO also
       demonstrated a lack of           did not require that the contractor submit bills in
        due diligence and a             accordance with the DoD FMR, verify whether
    disregard for Federal and DCMA officials performed contract surveillance, or
                                        obtain his necessary continuous learning
          DoD contracting               requirements. Furthermore, the BAMS PCO did
            requirements.               not attempt to maintain his proficiencies as a
                                        contracting officer and the COR did not fully
understand her assigned duties or ask for clarification. The BAMS PCO and COR
demonstrated a lack of due diligence and a disregard for Federal and DoD contracting
requirements. Therefore, NAVAIR officials should perform an administrative review of
the BAMS PCO and COR on the BAMS contract to determine whether administrative or
personnel actions are appropriate.

Recommendations, Management Comments, and Our
Response
The Deputy Assistant Secretary of the Navy for Acquisition and Logistics Management
endorsed the comments provided by the Assistant Commander for Contracts, NAVAIR
(Assistant Commander for Contracts), and the Program Executive Officer, Unmanned
Aviation and Strike Weapons (Program Executive Officer). In addition, the Regional
Director, DCAA Northeastern Region (Regional Director), responded on behalf of the
Director, DCAA.

Revised Recommendations
To clarify our requests of management, we revised Recommendations A.1.e.(3) and
A.2.b.




                                             18 

A.1. We recommend that the Assistant Commander for Contracts, Naval Air
Systems Command:

        a. Conduct an annual training review of all contracting professionals to
verify that they received training to maintain the knowledge, skills, and abilities
relevant to contracting as required by DoD Instruction 5000.66, “Operation of the
Defense Acquisition, Technology, and Logistics Workforce Education, Training,
and Career Development Program,” December 21, 2005.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed and stated that NAVAIR will implement
a mandatory review of contracting professionals’ training. The Assistant Commander for
Contracts also stated that she will ensure that contracting professionals receive training to
maintain relevant contracting knowledge, skills, and abilities relevant to contracting as
required by the AT&L Continuous Learning Policy. The estimated completion date for
the initial training assessment is January 31, 2011.

Additionally, the Assistant Commander for Contracts explained that, upon completion of
the initial training assessment, she will require supervisors to complete an annual review
of training that will coincide with the existing performance review schedules. She also
stated that departmental and site analysts will maintain spreadsheets to track mandatory
training and individual training plans, which will be reviewed by the Resource
Management Office with feedback provided to departments, if necessary.

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required.

        b. Perform an annual review to verify that supervisors develop individual
training plans with the procurement contracting officer and the contract specialist
so that they are current and proficient in their functional areas and they meet the 80
continuous learning points requirement in DoD Instruction 5000.66, “Operation of
the Defense Acquisition, Technology, and Logistics Workforce Education, Training,
and Career Development Program,” December 21, 2005.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed. She stated that NAVAIR officials added
an annual review requirement to verify that supervisors developed individual training
plans with PCOs and contract specialists to ensure that they have met their requirements.
The Assistant Commander for Contracts stated that NAVAIR officials are in the process
of implementing individual training plans for GS-13s and above or the equivalent. The
estimated completion date for the individual training plan templates will be no later than
December 1, 2010. Additionally, a review to verify that individual training plans were
created will be completed by February 2011.




                                             19 

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required.

       c. Initiate a review of the performance of the Broad Area Maritime
Surveillance procurement contracting officer and determine whether administrative
action is warranted.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that the performance of
the BAMS PCO had been reviewed by the NAVAIR Division Head and the Senior
Executive Service Department Head as part of the National Security Personnel System
semiannual and annual review process. She also stated that there were no actions
identified that would warrant administrative action or further review of the BAMS PCO’s
performance.

Our Response
We disagree with the comments from the Assistant Commander for Contracts and ask her
to reconsider her comments in response to the final report. Our report discloses serious
problems with the overall management of the $1.8 billion BAMS contract. Since the
problems were not known during the National Security Personnel System review process,
they could not have been addressed or considered in the PCO’s performance.

       d. Consider establishing a cost reimbursement contract line item in order to
charge travel expenses incurred, on a cost reimbursement basis, for future cost-
plus-award-fee contracts.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed. She stated that NAVAIR will consider
including a cost reimbursement line item for travel for future procurements.

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required.

      e. Instruct that the Broad Area Maritime Surveillance procurement
contracting officer:

                (1) Request that Northrop Grumman Integrated Systems conduct a
review of its travel claims approval process.




                                          20 

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed. She stated that Northrop Grumman
Integrated Systems already conducted a review of its travel claims approval process. The
Assistant Commander for Contracts also stated that the BAMS PCO will request DCAA
auditors to verify the adequacy of the Northrop Grumman travel claims approval process
within the next 90 days.

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required.

             (2) Modify the contract to require that the contractor bills submitted
for payment in the wide-area work flow system comply with DoD
Regulation 7000.14 R, “DoD Financial Management Regulation,” volume 10,
chapter 8.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that a contract
modification is not necessary because the contractor bills submitted for payment in the
wide-area workflow system comply with DoD Regulation 7000.14 R, “DoD Financial
Management Regulation,” volume 10, chapter 8.

Our Response
The comments from the Assistant Commander for Contracts are not responsive. The
contractor bills did not comply with DoD Regulation 7000.14 R because they did not
provide a description or price of the supply or service being performed, among other
required elements. We request that the Assistant Commander for Contracts provide
additional comments in response to the final report that demonstrate how the contractor
bills comply with DoD Regulation 7000.14 R because they did not have the required
elements or provide a waiver that exempts the BAMS contractor from having to comply
with this regulation.

             (3) Review and approve contractor bills submitted in the wide-area
workflow system thereby certifying acceptance prior to Defense Contract Audit
Agency auditors review and before payment.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated DCAA auditors have sole
authority for approving claimed costs and interim payment requests, and the
administrative contracting officer has the sole authority for approving final payment
requests in accordance with AT&L guidance. The Assistant Commander for Contracts
also stated that because significant contract administration functions are performed at the
contractor’s facility, the BAMS contract is administered by DCMA officials. She
explained that DCMA officials are organizationally poised to provide oversight of



                                            21 

contract performance since the Defense Management Review Decision 916 consolidated
contract administration to DCMA.

The Assistant Commander for Contracts stated that when Northrop Grumman was
approved for direct billing using wide-area workflow, interim vouchers went directly to
the disbursing office for payment, she added that DCAA auditors now review and
approve interim vouchers since they subsequently removed Northrop Grumman from
direct billing on July 23, 2009.

Our Response
The comments from the Assistant Commander for Contracts are not responsive. We
revised this recommendation to clarify the intent of the recommendation. The intent of
the recommendation was to make sure that the BAMS PCO certifies Government
acceptance of the goods or services as required by the DoD FMR before DCAA officials
perform their reviews of contractor bills. Therefore, we request that the Assistant
Commander for Contracts reconsider her position and provide revised comments in
response to the final report stating whether she will require BAMS program officials to
certify acceptance of goods and services provided before DCAA officials approve each
interim voucher for payment.

               (4) Review all travel expenses and the supporting documentation to
verify that the contractor submits travel claims in accordance with Federal
Acquisition Regulation Subpart 31.2, “Contracts With Commercial Organizations.”

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that DCAA auditors have
sole authority for confirming claimed costs and approving interim payment requests. She
also stated that the DCMA administrative contracting officer has sole authority for
approving final payment requests. She further stated that the October 2001 AT&L
memorandum states that as a part of the billing process, DoD Components do not require
contractors to submit detailed cost information.

Our Response
The comments from the Assistant Commander for Contracts are not responsive. The
intent of this recommendation was to validate Government acceptance, not to certify
contractor costs. However, because of the serious travel payment issues disclosed by the
audit, we believe the Assistant Commander should have heightened interest in the
acceptability of these costs. Therefore, we request that the Assistant Commander for
Contracts provide comments in response to the final report stating whether she will
review travel expenses and supporting documentation.

              (5) Identify all Government-furnished property required for
performance of the Broad Area Maritime Surveillance contract to include all shared
Air Force Global Hawk specialized tools and testing equipment in accordance with
the Federal Acquisition Regulation Subpart 45.2, “Solicitation and Evaluation
Procedures.”


                                           22 

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that all
Government-furnished property shared with the Air Force Global Hawk program had
been appropriately identified. She further stated that NAVAIR will review the
Government-furnished property listing to ensure that it is accurate and that it meets the
requirements of FAR part 45 and DoD Instruction 5000.64. The estimated completion
date is January 21, 2011.

Our Response
The Assistant Commander for Contracts’ planned actions met the intent of the
recommendations, and no further comments are required.

             (6) Create and maintain a complete and auditable Government-
furnished property listing as required by DoD Instruction 5000.64, “Accountability
and Management of DoD-Owned Equipment and Other Accountable Property,”
November 2, 2006.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed and cited her response to
Recommendation A.1.e.(5).

Our Response
The Assistant Commander for Contracts’ planned actions met the intent of the
recommendation, and no further comments are required.

            (7) Modify the contract to include the revised and comprehensive
Government-furnished property listing.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed. She stated that the BAMS PCO will
modify the contract to include a revised and complete Government-furnished property
listing throughout the execution of the contract.

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required.

               (8) Perform semiannual reviews of the Government-furnished
property listing to account for all Government-furnished property.




                                            23 

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts agreed. She stated that the BAMS integrated
product team currently conducts periodic reviews of the Government-furnished property
listings. She further stated that the reviews of the Government-furnished property listings
have been more frequent than semiannual.

Our Response
The comments from the Assistant Commander for Contracts are responsive, and no
further comments are required. We request that she provide a copy of the
Government-furnished property reviews performed by the BAMS integrated product
team for FY 2010.

             (9) Establish a cost-sharing arrangement with the Air Force Global
Hawk program that identifies how the Navy and Air Force plan to divide the
maintenance, labor, and repair costs for the shared specialized tools and testing
equipment.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that normally the
agency that owns the shared tools and equipment is responsible for maintenance, labor,
and repair costs. She also stated that NAVAIR officials will review the shared property
to determine whether a cost-sharing arrangement is necessary. The estimated completion
date is January 21, 2011.

Our Response
The comments from the Assistant Commander for Contracts are partially responsive.
Although she stated that NAVAIR officials will determine whether a cost-sharing
agreement is necessary with the Air Force Global Hawk program, she did not state
whether NAVAIR officials will establish a cost-sharing agreement to divide the cost
between the two programs. Therefore, we request that she provide comments in response
to the final report that state whether she will establish a cost-sharing agreement if she
determines that one is necessary.

              (10) Develop a mitigation strategy for the Broad Area Maritime
Surveillance program to identify alternate solutions for when the Air Force Global
Hawk specialized tools and testing equipment are not readily available.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that the Navy, Air
Force, and Northrop Grumman work closely together to find opportunities to leverage
assets from both programs and sequence the use of the specialized tools and equipment to
minimize incurred costs, while maintaining the individual platforms. The Assistant
Commander for Contracts also stated that the BAMS program can save millions through
this process. Additionally, she noted that the Navy, Air Force, and Northrop Grumman
have a successful, proven record of sharing assets for the BAMS Demonstrator program.


                                            24 

Our Response
The comments from the Assistant Commander for Contracts are not responsive. She did
not comment on whether the NAVAIR officials will develop a mitigation strategy for the
BAMS program when specialized tools and testing equipment are not readily available.
We request that in response to the final report, she provide either the strategy or an
explanation of how she will effectively and efficiently implement the program should
opportunities to leverage assets between the Navy and Air Force not work.

              (11) Require that the contracting officer’s representative complete the
training identified in the Office of Management and Budget Memorandum, Office of
Federal Procurement Policy, “The Federal Acquisition Certification for Contracting
Officer Technical Representatives,” November 26, 2007, until DoD establishes and
implements a standard contracting officer’s representative certification program.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that the Federal
COR Certification Program applies to all agencies except those subject to the Defense
Acquisition Workforce Improvement Act. She further stated that the March 2010 Under
Secretary of Defense AT&L policy memorandum established the DoD standard COR
requirements. She further stated that the Deputy Assistant Secretary of the Navy for
Acquisition and Logistics Management issued a policy memorandum, “DoD Standard for
Certification of Contracting Officer's Representatives for Services Acquisitions,”
May 18, 2010.

Although the Assistant Commander for Contracts stated that the BAMS COR completed
the training required by NAVAIR Instruction 4200.28D, she will review training taken by
the BAMS COR to determine whether it meets the May 2010 Deputy Assistant Secretary
of the Navy for Acquisition and Logistics Management memorandum. According to the
Assistant Commander for Contracts, the Navy policy memorandum for CORs requires
that the COR receive training that meets the COR 222, “Contracting Officer Technical
Representative,” training requirements. The estimated completion date is November 26,
2010.

Our Response
Although the Assistant Commander for Contracts partially agreed, her comments indicate
that corrective actions were taken to implement a more robust training regime for the
BAMS COR. Therefore, the comments from the Assistant Commander for Contracts met
the intent of the recommendation, and no further comments are required.

A.2. We recommend that the Director, Defense Contract Audit Agency, instruct the
Defense Contract Audit Agency, Long Island, New York, auditors to:

      a. Increase the contractor bill reviews for Northrop Grumman Integrated
Systems until the contractor demonstrates that it can bill in accordance with the
contract terms.



                                          25 

Regional Director Comments
The Regional Director agreed. He stated that DCAA auditors will increase the frequency
of interim voucher reviews for the BAMS contract at Northrop Grumman Systems, and
voucher reviews will continue until the contractor properly bills in accordance with the
terms of the contract. The Regional Director also stated that DCAA auditors began this
review on October 1, 2010.

Our Response
The comments from the Regional Director are responsive, and no further comments are
required.

      b. Perform the calendar year 2008 incurred costs audit for the Broad Area
Maritime Surveillance contract within one year of the date the final report is issued.

Regional Director Comments
The Regional Director partially agreed. He stated that, in response to this
recommendation, DCAA auditors will initiate a direct cost audit for the BAMS contract
in order to address the area of direct travel costs. He explained that the interim voucher
sampling plan for the BAMS contract requires a review of different cost elements for
each billing cycle, which includes the supporting documentation. He said that DCAA
auditors will accelerate the contractor's calendar year 2008 incurred cost audit with an
estimated completion date of September 30, 2011. However, the Regional Director
stated that accelerating completion of the calendar year 2009 incurred cost claim audit
would not be beneficial to the Government because there are no specific incurred cost
claims and the period of performance for BAMS contract continues until calendar
year 2015. He further stated that performing real-time direct cost audits of the interim
voucher reviews would provide the most visibility and surveillance for the BAMS
contract. Lastly, the Regional Director explained that incurred cost claims for Northrop
Grumman requires extensive sampling and testing for over 200 flexible-priced contracts.

Our Response
The comments from the Regional Director are responsive. We revised the
recommendation to require the review of only the calendar year 2008 incurred cost audit
within a year of the date that the final report is issued. Because the Regional Director
stated that DCAA auditors will accelerate the calendar year 2008 incurred cost audit, no
additional comments are required.




                                            26 

A.3. We recommend that the Program Manager, Persistent Maritime Unmanned
Aircraft Systems Program Office:

      a. Conduct integrated baseline reviews as required by Defense Federal
Acquisition Regulation Supplement clause 252.234-7002, “Earned Value
Management System,” and the Broad Area Maritime Surveillance contract.

Program Executive Officer Comments
The Program Executive Officer partially agreed. He stated that in November 2008,
BAMS program officials conducted a performance measurement baseline as a part of the
initiation of the IBR process, which was within 180 days of the program re-start
following the denial of the contract protest. He also stated that BAMS program officials
conducted an IBR in July 2009 after the incorporation of a major contract modification in
February 2009. Additionally, the Program Executive Officer stated that future IBRs will
be conducted in accordance with DFARS clause 252.234-7002.

Our Response
The Program Executive Officer comments are responsive, and no further comments are
required.

       b. Initiate a review of the performance of the Broad Area Maritime
Surveillance contracting officer’s representative and determine whether
administrative action is warranted.

Program Executive Officer Comments
The Program Executive Officer disagreed. He stated that both the Division Head and
Department Head have conducted National Security Personnel System semiannual and
annual reviews of the BAMS COR. According to the Program Executive Officer, these
reviews did not identify that administrative action was needed. He further stated that the
performance of the BAMS COR as well as NAVAIR CORs was reviewed by their
supervisors throughout the course of the year in accordance with current personnel
procedures.

Our Response
We disagree with the comments from the Program Executive Officer. Our report
disclosed serious problems with the management and oversight of the $1.8 billion BAMS
contract. Since these problems were not known during the National Security Personnel
System review process, they could not have been considered in the prior BAMS COR
personnel reviews. We request that in response to the final report, the Program Executive
Officer reconsider his position and provide additional comments.




                                            27 

Finding B. Additional Actions Needed by
Defense Contract Management Agency to
Improve Contractor Surveillance
DCMA officials did not perform the necessary surveillance of the BAMS contract or the
BAMS contractors’ EVM systems. Specifically, DCMA officials did not:

   	 develop a complete quality assurance surveillance plan,

   	 perform any inspections to validate the BAMS contractor’s performance for over
      23 months,

   	 validate previously acquired and outdated EVM systems for the BAMS prime and
      subcontractors from 1975 and 1978, or

   	 perform the necessary surveillance of the BAMS subcontractors’ EVM systems.

These conditions occurred because DCMA officials did not perform their duties as
assigned, have the appropriate resources available to conduct the necessary EVM system
surveillance, or comply with the FAR, DFARS, and DCMA guidance. As a result,
BAMS program officials had no assurance that the BAMS contractor met contract quality
requirements or the needs of the warfighter. BAMS program officials also made and will
continue to make decisions affecting the $1.8 billion contract based on information that
may not be reliable.

Quality Assurance Surveillance Not Performed
According to FAR Subpart 42.3, “Contract Administration Office Functions,” the office
that is delegated the contract administration functions must perform the contract quality
assurance requirements identified in FAR Part 46, “Quality Assurance.” FAR part 46,
states that the office assigned the contract administration functions must develop and
apply efficient procedures for performing Government contract quality assurance actions.
FAR part 46 also requires that the contract administration office perform all actions
necessary, such as inspections, to verify that the supplies or services conform to contract
quality requirements. Additionally, FAR Subpart 46.4, “Government Contract Quality
Assurance,” states that a quality assurance surveillance plan should identify all work
requiring surveillance, locations of inspections, and the method for accepting the goods
or services. FAR subpart 46.4 further states that Government surveillance can be
performed during any stage of manufacturing or performance of service to verify that the
supplies or services conform to the contract requirements.




                                            28 

Incomplete Quality Assurance Surveillance Plan
DCMA Bethpage officials did not create a complete quality assurance surveillance plan
for the BAMS contract in accordance with FAR subpart 46.4. The BAMS PCO also did
not verify whether DCMA Bethpage officials developed a quality assurance surveillance
plan or perform due diligence to verify whether they conducted the necessary contract
quality assurance functions. Without a complete and comprehensive quality assurance
surveillance plan, the BAMS PCO and DCMA Bethpage officials did not have standards
for determining whether the contractor complied with the contract quality requirements.

The BAMS quality assurance surveillance plan did not specify all work requiring
surveillance or the inspections required to verify the contractor’s performance as required
by FAR subpart 46.4. The plan, instead, indicated that DCMA Bethpage officials would
perform system audits and identified the quarter in which they were to perform system
audits, but the plan did not provide any detailed audit steps. The plan also indicated that
DCMA Bethpage officials would use a sampling method based on a risk assessment but
did not identify the work requiring surveillance or the sampling method associated with
the contractors’ system risks. As a result, DCMA Bethpage officials developed an
inadequate plan that did not specify the types of surveillance required or the methods
necessary to complete surveillance.

Additionally, DCMA Bethpage officials did not finalize the quality assurance
                                            surveillance plan for the BAMS contract until
    Additionally, DCMA Bethpage February 2010, which was almost 2 years
      officials did not finalize the        after contract award. DCMA Bethpage
    quality assurance surveillance          officials stated that this occurred because
      plan for the BAMS contract            there was not enough staff available to
                                            perform the surveillance and a memorandum
      until February 2010, which
                                            of agreement between the BAMS Program
        was almost 2 years after            Office and DCMA Bethpage was not
             contract award.                established until March 2009. However,
                                            during this time, DCMA Bethpage officials
did not perform any contract oversight even though the BAMS contractor continued to
receive payments for supplies and services billed to NAVAIR.

It is imperative that DCMA Bethpage officials perform detailed and comprehensive
surveillance for the BAMS contract because a cost-type contract poses increased risk for
DoD. Therefore, the Commander, DCMA Bethpage, should require his staff to develop a
quality assurance surveillance plan that complies with FAR subpart 46.4. The BAMS
PCO should also verify that the plan complies with FAR.

No Government Inspections
DCMA Bethpage officials stated that they did not conduct any inspections to validate
whether the contractor actually performed the services or provided the goods billed under
the BAMS contract. The BAMS PCO also did not verify that DCMA Bethpage
conducted surveillance of the BAMS contractor. FAR part 46 states that Government
contract quality assurance consists of various functions and inspections performed by the


                                            29 

Government to determine whether a contractor fulfilled the contract obligations
pertaining to quality and quantity. FAR part 46.4 requires that the contract
administration office perform inspections of the contractors’ work throughout the process
and document all inspections conducted.

For example, in October 2009, the BAMS contractor claimed that it incurred
                                     $26.7 million in labor and $16.3 million in
    Although DCMA Bethpage           material costs since the inception of the contract.
     officials did not perform       However, DCMA Bethpage officials did not
     required inspections, the       verify that the labor billed was commensurate
                                     with the work performed or that employees
     BAMS PCO continued to           actually completed the work for the BAMS
        pay the contractor           contract. DCMA Bethpage officials also did not
       $329.3 million, as of         review the materials billed to validate whether
         January 12, 2010.           the goods were actually purchased, contractually
                                     required, and directly related to the contract.

Although DCMA Bethpage officials did not perform required inspections, the BAMS
PCO continued to pay the contractor $329.3 million, as of January 12, 2010. The
Commander, DCMA Bethpage must identify methods of inspections, perform
inspections, and document the results of those inspections for the BAMS contract as
required by FAR part 46. The BAMS PCO should also validate that DCMA Bethpage
officials performed inspections in accordance with FAR part 46.

EVM Systems Not Properly Validated or Surveilled
The BAMS program is an Acquisition Category ID program which requires program
officials to use EVM. FAR Subpart 34.2, “Earned Value Management System,” states
that an EVM system is required for developing major acquisition systems. DFARS
Subpart 234.2, “Earned Value Management System,” also requires the use of an EVM
system for cost reimbursement or incentive contracts and subcontracts for $20 million or
above. Additionally, DFARS subpart 234.2 states that DCMA is responsible for
determining EVM system compliance for DoD.

FAR subpart 34.2 requires that the same EVM requirements apply for both the prime and
subcontractors. According to DoD Instruction 5000.02, “Operation of the Defense
Acquisition System,” December 8, 2008, cost contracts of more than $50 million must
have a validated and accepted EVM system, and cost contracts with a value between
$20 million and $50 million need only an accepted EVM system at contract award and
throughout contract performance. According to a DCMA EVM Center official, a
contractor obtains a validated system when a DCMA official certifies that the system
meets all DCMA EVM system guidelines. Once a system is validated, it remains
validated as long as DCMA officials continuously perform surveillance. For a contractor
to have an accepted system, it needs to demonstrate that it can implement the EVM
guidelines. The BAMS contract has four contractors, one prime contractor and three
major subcontractors. Table 2 provides a list of BAMS contractors and whether each had
an approved EVM system.


                                           30 

             Table 2. EVM System Validation Letters as of September 2009
Contractor Name          Prime or        Date of       Contract       Validation     Date of
                           Sub-         Contract         Value         Letter       Validation
                        contractor       Award        (in millions)                   Letter
      Northrop            Prime         April 22,        $1,800            Yes      October 15,
     Grumman                              2008                                         1975
     Integrated
      Systems
      Northrop          Subcontractor      August           130            Yes         August 18,
     Grumman                              25, 2008                                       19781
Electronic Systems
         L-3            Subcontractor      August           103            Yes         September
  Communications                          26, 2008                                      21, 19932
   Systems-West
     Raytheon,          Subcontractor      August            32            N/A3           N/A3
  Intelligence and                        25, 2008
    Information
      Systems
  Communications
1
  Northrop Grumman Integrated Systems used an EVM system validation letter from Westinghouse
Electric Corporation.
2
  L-3 Communications Systems used an EVM system validation letter from Paramax Electronic
Systems Division.
3
  For contracts and subcontracts of more than $20 million but less than $50 million, DoD
Instruction 5000.02 requires that the EVM system only be accepted. On June 27, 2005, DCMA
officials accepted Raytheon’s EVM system.

Validation Letters Were Dated 31 and 34 Years Ago
According to a DCMA official, once a contractor’s EVM system is validated, it remains
valid until further notice. DFARS Clause 252.234-7002, “Earned Value Management
System,” states that contractors must notify DCMA of any significant system changes
and the impact of those changes. DCMA officials must then approve the changes before
implementation or grant a waiver.

The BAMS prime contractor, Northrop Grumman (Northrop Grumman Integrated
Systems), and all three major subcontractors had either a validated or accepted EVM
system as required by DoD Instruction 5000.02. However, two BAMS contractors had
EVM validation letters for systems of previously acquired companies, and another
contractor had a validation letter that was dated more than 34 years ago. Northrop
Grumman had a validation letter dated October 15, 1975; Northrop Grumman Electronic
Systems had a validation letter from August 18, 1978, for Westinghouse Electric
Corporation; and L-3 Communications Systems had a validation letter from
September 21, 1993, for Paramax Electronic Systems Division.




                                               31 

Although the systems may have met validation requirements in the 1970s and for
previously acquired companies, these systems may not resemble the ones certified.
                                              BAMS program officials were relying on
    Although the systems may have information generated by old EVM systems
    met validation requirements in that did not have continuous surveillance to
      the 1970s and for previously            make decisions for a $1.8 billion contract.
                                              The Director, DCMA EVM Center, should
       acquired companies, these              validate that the Northrop Grumman
     systems may not resemble the             Integrated Systems, Northrop Grumman
              ones certified.                 Electronic Systems, and L-3 Communications
                                              systems EVM systems are valid and comply
with current EVM standards. The Director, DCMA EVM Center, should also develop
and issue a policy that prohibits the use of an acquired company’s EVM validation letter
to support the confirmation of a valid system for contract award.

Inadequate EVM System Surveillance
As of October 2009, DCMA officials did not provide proper EVM system surveillance
for BAMS subcontractors. The DoD, “EVM Implementation Guide,” October 2006,
requires surveillance of all EVM systems throughout the contract to validate compliance
with EVM system standards. According to the DCMA, “Earned Value Management
Standard Surveillance Operating Manual,” January 2008, the surveillance team is
required to (1) develop an EVM system surveillance plan, (2) perform system
surveillance on a monthly basis, and (3) assess all processes and guidelines annually
unless the Director, DCMA EVM Center, grants a waiver.

According to the Director, DCMA EVM Center, EVM specialists created a specific EVM
system surveillance plan for each EVM system location. The system surveillance plan
outlined the testing to determine whether the system was compliant with EVM
guidelines. However, DCMA officials did not establish the plans until nearly a year after
the contractors were awarded subcontracts. DCMA officials did not develop an EVM
system surveillance plan for Northrop Grumman Electronic Systems and Raytheon EVM
systems until July 15, 2009, and August 3, 2009, respectively. According to a DCMA
Virginia official, DCMA Virginia did not have a system surveillance plan for Raytheon
prior to July 2009 because DCMA Virginia did not have personnel available to create the
plan or conduct surveillance. Without a proper EVM system surveillance plan prior to
contract award, DCMA officials were unable to determine whether information generated
by the EVM systems was reliable.

Additionally, the DCMA EVM System Standard Surveillance Operating Manual requires
monthly surveillance that, when combined for the entire year, creates an annual, full
system assessment. The manual also states that DCMA officials must conduct testing in
accordance with the system surveillance plan and produce system surveillance reports
documenting their findings. However, DCMA officials did not conduct monthly system
surveillance for Northrop Grumman Electronic Systems EVM system until August 2009.
For Northrop Grumman Electronic Systems, DCMA officials did not perform a complete
assessment in 2008 and they did not assess the EVM system in 2009. For Raytheon,


                                           32 

DCMA officials did not assess the EVM system in 2008 and determined that Raytheon’s
EVM system was noncompliant in 2009. The Director, DCMA EVM Center, did not
waive the requirements to conduct surveillance of the BAMS subcontractors. Therefore,
DCMA officials should have conducted surveillance as required by EVM guidelines to
gain assurance that the EVM information provided to BAMS program officials was
accurate for the $1.8 billion contract.

As a result, BAMS program officials were unable to confirm that EVM data provided by
                                    the subcontractors were reliable. The Director,
        As a result, BAMS           DCMA EVM Center, should verify that monthly
     program officials were         EVM surveillance and annual system assessments
     unable to confirm that         are performed in accordance with the System
                                    Standard Surveillance Operating Manual.
   EVM data provided by the Additionally, BAMS program officials should not
      subcontractors were           rely on the EVM data until DCMA officials validate
              reliable.             all applicable EVM systems and DCMA officials
                                    are performing the necessary system surveillance of
the BAMS prime and subcontractors. This process should provide assurance that the
BAMS contractors’ EVM systems are providing reliable and accurate data.

Summary
DCMA Bethpage officials did not develop a complete quality assurance surveillance plan
or perform inspections to validate the BAMS contractor’s performance in accordance
with FAR part 46. Additionally, DCMA officials did not validate previously acquired or
outdated EVM systems or perform surveillance of the BAMS subcontractors’ EVM
systems. As a result, BAMS program officials had no assurance that the BAMS
contractor met contract quality requirements. BAMS program officials also made and
will continue to make decisions affecting the $1.8 billion contract based on information
that may not be reliable.

Recommendations, Management Comments, and Our
Response
The Deputy Assistant Secretary of the Navy for Acquisition and Logistics Management
endorsed the comments provided by the Assistant Commander for Contracts.




                                          33 

B.1. We recommend that the Director, Defense Contract Management Agency:

     a. Direct the Commander, Defense Contract Management Agency, Bethpage,
New York to:

              (1) Develop a complete and comprehensive quality assurance
surveillance plan for the Broad Area Maritime Surveillance contract in accordance
with Federal Acquisition Regulation Subpart 46.4, “Government Contract Quality
Assurance.”

Defense Contract Management Agency Comments
The Director, DCMA, partially agreed. He stated that DCMA Bethpage officials use a
facility-wide quality assurance surveillance approach. He also stated that in April 2008
(contract award), DCMA Bethpage officials had a facility-wide surveillance plan that
referenced all other programs at DCMA Bethpage. The plan was updated in
February 2009. The Director further stated that DCMA Bethpage officials updated the
plan in February 17, 2010, to include the BAMS contract.

The Director then explained that DCMA Bethpage employs other supporting plans that
review the contractor’s supply chain, critical safety items, and logistics systems. He
stated that DCMA Bethpage officials use letters of delegation to describe these
surveillance areas and provide directions for subcontracting surveillance to local DCMA
offices; however, at the time of the audit, these plans and letters of delegation were not
referenced to the quality assurance surveillance plan, but were offered for review.
Additionally, the Director stated that although surveillance plans were in place during the
period of the contract, the surveillance planning process is continuously being modified
by DCMA Bethpage officials to enhance surveillance and comply with Agency
guidelines. Finally, he stated that DCMA Bethpage officials will revise the quality
assurance surveillance plan to reflect current policy and contain facility-wide surveillance
activities as well as BAMS contract-specific surveillance activities by November 1, 2010.

Our Response
The Director, DCMA’s, comments are partially responsive. We agree that during the
audit, the DCMA Bethpage facility-wide quality assurance surveillance plan was not
referenced or linked to the various letters of delegation or other DCMA site surveillance
plans. DCMA Bethpage officials revised the February 17, 2010, plan to include the
BAMS program but they did not include any specific surveillance requirements or
locations of surveillance for the BAMS contract. According to the FAR subpart 46.4,
quality assurance surveillance plans should identify all work requiring surveillance,
locations of inspections, and the method for accepting the goods or services. We request
that in response to the final report, the Director, DCMA, provide his plan and an
estimated date that the BAMS quality assurance surveillance plan will be completed that
identifies all work requiring surveillance, location of inspections, and the method for
accepting the goods or services in response to the final report.




                                            34 

             (2) Perform inspections and document the inspections completed for
the Broad Area Maritime Surveillance contract in accordance with Federal
Acquisition Regulation Part 46, “Quality Assurance.”

Defense Contract Management Agency Comments
The Director, DCMA, partially agreed. He stated that the BAMS PCO awarded the
contract to Northrop Grumman at DCMA Bethpage, and delegated the contract
administration functions to DCMA Bethpage; however, he said that no products are
manufactured or inspected at DCMA Bethpage. The Director explained that all
manufacturing is accomplished through purchase orders to subcontractors and at other
Northrop Grumman sites with delegated DCMA contract administration functions at
those contractor facilities. He further explained that in accordance with letters of
delegation issued to local DCMA offices with cognizance of the subcontractors and
Northrop Grumman sites, DCMA inspections are performed to validate contractor
performance in accordance with FAR part 46. Additionally, the Director stated that
about 100 letters of delegation for quality assurance have been issued as of October 8,
2010. He also stated that DCMA Bethpage officials monitor the surveillance but that the
local DCMA offices are responsible for maintaining documentation that accounts for the
delegated surveillance activities and performing the analysis in adjusting risk and
associated strategies for the BAMS contract quality assurance surveillance plan.

Our Response
The Director, DCMA, comments are not responsive. The Director’s comments contradict
information provided to us during the audit. For example, the BAMS administrative
contracting officer at DCMA Bethpage stated that DCMA officials did not perform any
inspections to verify the contractor’s performance as of March 2010.

The DCMA Bethpage program integrator provided us with an example of a letter of
delegation from DCMA Bethpage to DCMA Texas. We reviewed this letter of
delegation and determined that it did not require any activities to verify whether the
contractor met any contract quality requirements as required by FAR part 46. Instead, the
letter of delegation focused on activities overseeing EVM data.

DCMA Bethpage officials have overall responsibility of the contract administration and
quality assurance requirements as delegated to them by the BAMS PCO. Even though
DCMA Bethpage officials further delegate some of these responsibilities, they must still
oversee the BAMS contract surveillance and verify that the work is performed in
accordance with the requirements of FAR part 46. Therefore, we request that the
Director, DCMA, provide comments in response to the final report stating whether he
will perform and document completed inspections for the BAMS contract.




                                           35 

      b. Instruct the Director, Defense Contract Management Agency, Earned
Value Management Center to:

              (1) Perform a review to determine whether the Broad Area Maritime
Surveillance contractors’ outdated or previously acquired earned value
management systems remain valid and comply with current earned value
management systems standards as required by the Defense Federal Acquisition
Regulation Supplement Subpart 234.2, “Earned Value Management System.”

Defense Contract Management Agency Comments
The Director, DCMA, agreed. He stated that after conducting an initial review, two
contractors are operating with EVM system acceptance letters under different corporate
entities, and another contractor was using an acceptance letter at one site that was issued
for a different site. According to the Director, these contractors complied with EVM
standards and will undergo a DCMA EVM system implementation review.

Our Response
The Director, DCMA, comments are responsive, and no further comments are required.

              (2) Prohibit contractors from using a validation letter from a
previously acquired company’s earned value management system unless the
contractor demonstrated that it is using the system as it was validated in accordance
with Defense Federal Acquisition Regulation Supplement Subpart 234.2, “Earned
Value Management System.”

Defense Contract Management Agency Comments
The Director, DCMA, agreed and cited his response to Recommendations B.1.b.(1) and
B.1.b.(3).

Our Response
The Director, DCMA, comments are responsive, and no further comments are required.

             (3) Perform surveillance of the earned value management systems for
the Broad Area Maritime Surveillance contractors as required by the Defense
Contract Management Agency, “Earned Value Management Standard Surveillance
Operating Manual,” January 2008.

Defense Contract Management Agency Comments
The Director, DCMA, partially agreed. He stated that the EVM surveillance is performed
in accordance with the DCMA EVM system surveillance operating manual. He also
stated that contracts surveyed each year are evaluated on a risk matrix in accordance with
the DCMA system surveillance operating manual to determine whether data from each
contract will be used in that year’s annual EVM system surveillance. Additionally, the
Director noted that contracts with low risk may not contribute data in the evaluation of
the EVM system for a given year.


                                             36 

Our Response
The Director, DCMA, comments are not responsive. Specifically, he did not state
whether he will perform surveillance of all BAMS contractors’ EVM systems.
According to the DCMA EVM System Surveillance Operating Manual, every EVM
system should have a system surveillance plan that establishes the surveillance approach,
risk criteria, and schedule. In addition, the DoD EVM Implementation Guide states that
all management control systems that require EVM compliance also require surveillance
regardless of whether the system is validated. Therefore, we request that the Director,
DCMA, provide comments in response to the final report that state how he will comply
with these requirements.

              (4) Validate that the appropriate Defense Contract Management
Agency office for the Broad Area Maritime Surveillance contractors:

                    (a) Created an earned value management system surveillance
plan as required by the Defense Contract Management Agency, “Earned Value
Management Standard Surveillance Operating Manual,” January 2008.

Defense Contract Management Agency Comments
The Director, DCMA, agreed. He stated that for the BAMS contract, all but one of the
DCMA contract management offices has a system surveillance plan. He noted that for
the DCMA office without a plan, the contractor has a contract worth $20 to $50 million,
which does not require a system validation. Additionally, the Director stated that DCMA
officials will develop a system surveillance plan at that location with an estimated
completion in FY 2011.

Our Response
The Director, DCMA, comments are responsive, however; we request that he indicate a
specific date by which he will provide us the EVM system surveillance plan for the
location for which he does not have a plan.

                   (b) Performed monthly surveillance of the earned value
management system as required by the Defense Contract Management Agency,
“Earned Value Management Standard Surveillance Operating Manual,”
January 2008 and the earned value management system surveillance plans.

Defense Contract Management Agency Comments
The Director agreed and cited his response to Recommendation B.1.b.(4)(a).

Our Response
The Director, DCMA, comments are responsive, however; we request that he indicate a
specific date by which he will provide us the end-of-year EVM status letters for all
BAMS subcontractors.




                                           37 

              (5) Notify DoD acquisition officials that the data generated from the
Broad Area Maritime Surveillance contractors’ earned value management systems
should not be considered fully reliable until the systems are re-validated and receive
the required system surveillance.

Defense Contract Management Agency Comments
The Director, DCMA, disagreed. He concluded that there is no risk to the EVM data,
system, or reliability of data within the DCMA EVM systems for the BAMS program
because the DCMA EVM system surveillance and compliance review process are
working and surveillance is being monitored. He explained that all 11 prime contractor
and subcontractor DCMA contract management offices are performing ongoing system
surveillance in accordance with agency policies. He also stated that the system
surveillance includes conducting monthly surveillance activities, producing system
surveillance plans and standard surveillance reports, and issuing corrective action
requests when necessary.

Our Response
Although the Director, DCMA, disagreed, the actions taken by DCMA officials to
strengthen the EVM system validation and surveillance process indicate that corrective
actions were taken to satisfy the intent of this recommendation. No further comments are
required.

B.2. We recommend that the Assistant Commander for Contracts, Naval Air
Systems Command:

      a. Verify that Defense Contract Management Agency Bethpage officials
developed a complete and comprehensive quality assurance surveillance plan in
accordance with Federal Acquisition Regulation Subpart 46.4, “Government
Contract Quality Assurance.”

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that
Recommendation B.2.a. should be redirected to DCMA Bethpage officials. Specifically,
she stated that we should require DCMA Bethpage officials to provide a certification to
the BAMS PCO stating that they developed a complete and comprehensive quality
assurance surveillance plan in accordance with FAR subpart 46.4.

Our Response
The Assistant Commander for Contracts comments are not responsive. We did not
redirect Recommendation B.2.a. to DCMA Bethpage officials because the BAMS PCO is
ultimately responsible for managing the execution of the contract, and he should verify
whether DCMA Bethpage officials developed a complete and comprehensive quality
assurance surveillance plan in accordance with FAR subpart 46.4. We request that the
Assistant Commander for Contracts provide her plan of actions and milestones to verify




                                          38 

that DCMA Bethpage officials developed a quality assurance surveillance plan that
complies with FAR subpart 46.4 in response to the final report.

      b. Validate that Defense Contract Management Agency Bethpage officials
performed surveillance and inspections in accordance with the Federal Acquisition
Regulation Part 46, “Quality Assurance.”

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that Recom-
mendation B.2.b. should be redirected to DCMA Bethpage officials. Specifically, she
stated that we should require DCMA Bethpage officials to provide a yearly validation to
the BAMS PCO stating that they performed surveillance and inspections in accordance
with FAR part 46.

Our Response
The Assistant Commander for Contracts comments are not responsive. We did not
redirect Recommendation B.2.b. to DCMA Bethpage officials because the BAMS PCO is
ultimately responsible for managing the execution of the contract, and it is his
responsibility to verify whether DCMA Bethpage officials performed surveillance and
inspections in accordance with FAR part 46. We request that the Assistant Commander
for Contracts provide her plan of actions and milestones to validate that DCMA Bethpage
officials comply with FAR part 46.




                                           39 

Appendix. Scope and Methodology
We conducted this performance audit from July 2009 through September 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed BAMS program, NAVAIR contracting, DCMA Bethpage, and DCAA
Long Island officials responsible for contractor billing, quality assurance, EVM
validation and surveillance, Government-furnished property, and contracting officials’
training. To review the original BAMS contracting documentation, we visited NAVAIR
Headquarters in Patuxent River, Maryland, and DCMA Aircraft Integrated Maintenance
Organization in Bethpage, New York. We also contacted officials from DCMA Virginia;
DCMA Hartford; DCMA Salt Lake City; DCMA Baltimore, Maryland; and the Defense
Finance and Accounting Service Columbus, Ohio, by phone and e-mail.

For NAVAIR contract management, we reviewed the BAMS contract and modifications;
the COR delegation letter; contractor bills; contractor progress, status, and management
reports; documentation of DCAA auditor contractor bill reviews; Government property-
sharing memoranda between the Air Force and the Navy; BAMS PCO, contracting
specialist, and COR training transcripts, certificates, and warrants; and IBR
documentation. We reviewed the documents for compliance with the FAR, DFARS, the
DoD FMR, DoD Instruction; the BAMS contract; Office of Management and Budget
memorandum; DoD Directive for the AT&L Workforce Education, Training, and Career
Development Program; Department of Navy Policy Guidance on Continuous Learning
for the Acquisition Workforce; the Department of Navy, Office of the Assistant Secretary
for Research, Development, and Acquisition Memorandum; and DoD EVM
Implementation Guide.

For DCMA contractor surveillance, we reviewed the BAMS contract and modifications;
contractor progress, status, and management reports; contract performance report plans;
quality program plans; memoranda of agreement; the COR delegation letter; DCMA
product assurance and surveillance plans; End of Year EVM status letters; EVM
validation letters; monthly surveillance reports; DCMA advanced agreements. We
reviewed the documents for compliance with the FAR; DFARS; DoD Directives;
DoD FMR; Office of the Under Secretary of Defense memoranda; Deputy Secretary of
Defense memoranda; NAVAIR instructions; DoD instructions; DoD EVM
Implementation Guide; DCMA EVM Standard Surveillance Operating Manual; Under
Secretary of Defense for AT&L memoranda; and the Assistant Secretary of the Navy,
Research, Development, and Acquisition, Center for EVM guidance.




                                           40 

Use of Computer-Processed Data
We relied on information and documentation contained in the BAMS contracting files
and provided by DoD personnel to support the findings and conclusions of this report.
We verified any computer-processed data used from the wide-area workflow system to
obtain the bills submitted by the BAMS contractor for payment. We did not use the
information obtained from the wide-area workflow system as the sole basis for our
findings and conclusions. Therefore, we did not perform a formal reliability assessment
of the computer-processed data.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued one report discussing the BAMS contract. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2011-014, “Weaknesses in Awarding Fees for the Broad Area
Maritime Surveillance Contract,” November 2, 2010




                                           41 

Defense Contract Audit Agency Comments





                  Click to add JPEG file




                                 42
                           Final Report 

                            Reference





Click to add JPEG file




                         Revised





               43
Click to add JPEG file




               44
Defense Contract Management Agency Comments





                 Click to add JPEG file




                                45
Click to add JPEG file




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
Assistant Secretary of the Navy for Acquisition and
Logistics Management




                    Click to add JPEG file




                                   49
Click to add JPEG file




               50
Click to add JPEG file




               51
Click to add JPEG file




               52
Click to add JPEG file




               53
                           Final Report 

                            Reference





                         Revised





Click to add JPEG file




               54
Click to add JPEG file




               55
                           Final Report 

                            Reference





                         Revised 





Click to add JPEG file




               56
Click to add JPEG file




               57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
